App. 1
APPENDIX
42 U.S.C. § 12131
As used in this subchapter:
(1)

Public entity

The term “public entity” means—
(A)

any State or local government;

(B) any department, agency, special purpose district,
or other instrumentality of a State or States or local
government; and
(C) the National Railroad Passenger Corporation,
and any commuter authority (as defined in section
24102(4) of title 49).
(2)

Qualified individual with a disability

The term “qualified individual with a disability” means
an individual with a disability who, with or without
reasonable modifications to rules, policies, or practices,
the removal of architectural, communication, or transportation barriers, or the provision of auxiliary aids
and services, meets the essential eligibility requirements for the receipt of services or the participation in
programs or activities provided by a public entity.
42 U.S.C. § 12132
Subject to the provisions of this subchapter, no qualified individual with a disability shall, by reason of such
disability, be excluded from participation in or be

App. 2
denied the benefits of the services, programs, or activities of a public entity, or be subjected to discrimination
by any such entity.
29 U.S.C. § 794(a)
No otherwise qualified individual with a disability in
the United States, as defined in section 705(20) of this
title, shall, solely by reason of her or his disability, be
excluded from the participation in, be denied the benefits of, or be subjected to discrimination under any
program or activity receiving Federal financial assistance or under any program or activity conducted by
any Executive agency or by the United States Postal
Service. The head of each such agency shall promulgate such regulations as may be necessary to carry out
the amendments to this section made by the Rehabilitation, Comprehensive Services, and Developmental
Disabilities Act of 1978. Copies of any proposed regulation shall be submitted to appropriate authorizing
committees of the Congress, and such regulation may
take effect no earlier than the thirtieth day after the
date on which such regulation is so submitted to such
committees.
28 C.F.R. § 35.133
§ 35.133 Maintenance of accessible features
(a) A public entity shall maintain in operable working condition those features of facilities and equipment

App. 3
that are required to be readily accessible to and usable
by persons with disabilities by the Act or this part.
(b) This section does not prohibit isolated or temporary interruptions in service or access due to maintenance or repairs.
(c) If the 2010 Standards reduce the technical requirements or the number of required accessible elements below the number required by the 1991
Standards, the technical requirements or the number
of accessible elements in a facility subject to this part
may be reduced in accordance with the requirements
of the 2010 Standards.
28 C.F.R. § 35.150(a)
(a) General. A public entity shall operate each service, program, or activity so that the service, program,
or activity, when viewed in its entirety, is readily accessible to and usable by individuals with disabilities.
This paragraph does not—
(1) Necessarily require a public entity to make each
of its existing facilities accessible to and usable by individuals with disabilities;
(2) Require a public entity to take any action that
would threaten or destroy the historic significance of
an historic property; or
(3) Require a public entity to take any action that it
can demonstrate would result in a fundamental alteration in the nature of a service, program, or activity or

App. 4
in undue financial and administrative burdens. In
those circumstances where personnel of the public entity believe that the proposed action would fundamentally alter the service, program, or activity or would
result in undue financial and administrative burdens,
a public entity has the burden of proving that compliance with §35.150(a) of this part would result in such
alteration or burdens. The decision that compliance
would result in such alteration or burdens must be
made by the head of a public entity or his or her designee after considering all resources available for use
in the funding and operation of the service, program,
or activity, and must be accompanied by a written
statement of the reasons for reaching that conclusion.
If an action would result in such an alteration or such
burdens, a public entity shall take any other action
that would not result in such an alteration or such burdens but would nevertheless ensure that individuals
with disabilities receive the benefits or services provided by the public entity.

